No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, PETITIONER
v.
STATE OF WASHINGTON, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage prepaid, this 8th
day of September 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,420 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare under
penalty of perjury that the foregoing is true and correct. Executed on
September 8, 2021.

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 8, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition
to mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management, Office of
the Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s
phone number is (202) 514-2217 or 2218. Thank you for your consideration of this request.

UNITED STATES OF AMERICA
STATE OF WASHINGTON, ET AL.

NOAH G. PURCELL
SOLICITOR
AGWA – OFFICE OF THE WASHINGTON
ATTORNEY GENERAL (OLYMPIA)
PO BOX 40100
1125 WASHINGTON STREET, SE
OLYMPIA, WA 98504-0100
360-753-0100
NOAHP@ATG.WA.GOV
ANASTASIA R. SANDSTRUM
ASSISTANT ATTORNEY GENERAL
AGWA – OFFICE OF THE WASHINGTON
ATTORNEY GENERAL (SEATTLE)
800 5TH STREET
SUITE 2000
SEATTLE, WA 98104-3188
206-464-6993
ANASTASIA.SANDSTRUM@ATG.WA.GOV

